                     TESTIMONY OF SCOTT S. DAHL 

           INSPECTOR GENERAL, SMITHSONIAN INSTITUTION 

          ON COLLECTIONS STEWARDSHIP AT THE SMITHSONIAN

                COMMITTEE ON HOUSE ADMINISTRATION 

                   U.S. HOUSE OF REPRESENTATIVES 

                            JULY 17, 2013


Chairman Miller, Ranking Member Brady, and Committee Members:

Thank you for the opportunity to testify about the Smithsonian Institution’s
collections care challenges. Collections are at the core of the Smithsonian’s
mission, and their care is an essential and critical part of management’s
responsibilities and the OIG’s oversight function. I will focus my attention on
systemic issues involving collections care at the Smithsonian that we identified in
prior work and our oversight plans to ensure improved stewardship of the nation’s
treasured artifacts.

                      Importance of Collections Care at SI

The Smithsonian Institution is the world’s largest museum and research complex,
including 19 museums and galleries, 9 research facilities, and the National
Zoological Park. The total number of artifacts, works of art and specimens in
Smithsonian is currently estimated at more than 137 million, the bulk of which is
housed at the National Museum of Natural History. Most artifacts are donated by
individuals, collectors, and federal agencies to form the Smithsonian’s permanent
collections, held in trust for the American public.

Among these collections are irreplaceable national icons and specimens vital to the
study of the world’s scientific and cultural heritage, ranging from insects and
dinosaur bones, to President Abraham Lincoln’s top hat and the Space Shuttle
Discovery. Less than 2 percent of the Smithsonian’s collections are on display in
the museums at any given time. Smithsonian collections serve as resources for
answering significant scientific questions or educating the public. As such, the
collections play a vital role in advancing scientific knowledge, addressing societal
issues, and increasing the historical literacy of the nation.

Collections care and preservation are important to reduce the loss of the
educational, research, and exhibit value of the objects. Collections continue to
grow, standards in preservation evolve, and new technologies are introduced, all
creating increased demands on the collections, making their care essential.
Therefore, collections care should be viewed and managed as a critical part of the
Smithsonian’s mission.

                                  OIG Oversight

Over the last several years, we conducted collections management audits on the
three largest and most visible museums on the National Mall (National Museum of
Natural History, National Air and Space Museum, and National Museum of American


                                          1

History), as well as the Cooper-Hewitt, National Design Museum in New York.
Through these audits, we identified a pattern of issues concerning collections care,
such as inadequate preservation practices, insufficient inventory controls, and
security of collections areas not meeting Smithsonian standards.

Inadequate Preservation Practices

During our audit of National Museum of American History (NMAH), we found that
many collections were stored in substandard conditions not conducive to long-term
preservation. Some storage equipment and buildings were deteriorating and
contained potentially damaging or hazardous materials, such as lead, asbestos or
arsenic, that posed risks to both staff and collections. In some cases, pipes and
conduits were exposed, resulting in frequent leaks that also threatened collections.
Furthermore, NMAH did not have a comprehensive preservation program to
mitigate the deterioration of objects.

We were particularly troubled by the collections storage conditions at the Paul E.
Garber Facility in Suitland, Maryland. Approximately 400,000 objects stored at this
facility were especially at risk of damage. Built in the 1950s and 1960s, these
buildings have exceeded their intended useful lives as temporary storage. Some
are contaminated with hazardous substances, and many are inadequate to
withstand natural disasters. With the collapse of one of the buildings from snow
and wind in February 2010, and damage to other buildings from the earthquake in
August 2011, the risk to the collections has been clearly demonstrated.

As a result of these findings, we made recommendations to Smithsonian
management that addressed these deficiencies, including: developing a prioritized
plan for addressing pan-Institutional collections storage needs; exploring
opportunities to increase or maximize existing storage space; replacing substandard
storage equipment; developing and implementing a plan to remove and
decontaminate objects from storage facilities containing hazardous materials; and
establishing and implementing a preservation program at NMAH.

Smithsonian management concurred with all of our recommendations. In response,
management has developed a prioritized, project-specific plan to replace
substandard storage equipment and housing materials in collection storage areas.
Management has implemented this plan in three specific collecting divisions at the
museum. In addition, management has drafted a Collections Space Framework
Plan with recommendations for addressing current and projected Smithsonian-wide
space requirements. Management also has commenced work to address some of
the collections space deficiencies at the Garber Facility.

Insufficient Inventory Controls

In our audit of NMAH on inventory issues, we found that collecting units had not
developed or consistently followed inventory plans. Cyclical inventories, including
those of highly sensitive objects, were lacking, and inventory records were often




                                          2

incomplete and inaccurate. The lack of inventory controls leaves collections objects
vulnerable to loss or theft, diminishes accountability, and reduces the scholarly
value of the objects.

For example, during our sample inventories of collections, the museum could not
locate 10% of the objects in our sample. The missing items included ancient
Greek, Roman, and Arabic coins; silver and bronze medals; gold timepieces and
watches; and items from a large collection of coins and tokens featured on national
television.

We made recommendations for management to fix these problems, such as to
develop and implement a prioritized plan to conduct and document inventories in
accordance with Smithsonian policy. We further recommended that management
develop and implement criteria to identify all of its highly sensitive objects, as well
as standards for tracking these objects within the collections information system.

In response to our recommendations, management has developed a collections
stewardship plan which addresses management’s methodology for implementing
several of our inventory recommendations, including procedures for conducting and
documenting inventories, reconciling the results, and ensuring that all objects have
complete and accurate collections records. Management has also developed and
implemented criteria to identify highly sensitive objects and track these objects in
the museum’s collection information system.

In addition, the museum management continues to implement its collections
stewardship plan through a prioritized, project-specific approach. NMAH is
currently assessing staffing needs in order to make accurate and informed budget
requests.

Addressing these inventory issues is important for safeguarding the collections. In
additional to the items that could not be located during our audit sample
inventories, insufficient inventory controls have also impeded our investigative
inquiries into missing objects at the Smithsonian. Often, due to lack of sound
inventory practices, we could not determine if the items were lost, misplaced,
disposed of, broken, or stolen.

Inadequate Collections Security Controls

In our collections audits, we found that several collections storage areas had
inoperable or malfunctioning security devices. Additionally, some museums
permitted improper access to their collections and collections records. This included
unsupervised access to collection storage areas by researchers and volunteers,
inadequate screening of individuals with access, and poor controls over keys to
collections storage areas. These security deficiencies increased the risk of theft,
loss, or damage to objects.




                                           3

We recommended that the Smithsonian implement security policies and procedures
to improve security controls in collections storage areas. At NMAH, Smithsonian
management prioritized security device upgrades, improved controls over keys to
collection storage areas, and refined and implemented stricter access to collections
storage areas.

Similarly, in our investigations, we have looked into thefts of objects that may have
occurred due to insufficient security measures identified in our audit work. In one
instance, during our investigation of stolen objects, we found malfunctioning
security devices on a door, poor key control, and inadequate screening of
volunteers. These problems were factors that allowed the theft to occur.

Process for Evaluating Recommendation Implementation

Management has completed most of the recommended actions in our collections
audits. As part of our process for ensuring completion, we reviewed the requested
plans and evaluated the implementation measures where applicable. The work
involved to fully implement several of these recommendations is ongoing, and we
continue to monitor management’s progress.

                           Pan-Institutional Approach

In reviewing our prior collections audits, we found many of the same issues relating
to inventory controls and security across several museums. See charts below.

                                     INVENTORY

                                                                    Insufficient
                                                                     resources
                 Date         Lack of     Incomplete               allocated to
                Report        cyclical       object     Missing     collections
 MUSEUM         Issued      inventories     records     objects    management
NMAI Move     Oct. 2001                        X

NMNH          Sept. 2006         X             X

NASM          Mar. 2010          X             X

NMAH          Feb. 2011          X             X           X             X
Phase I
Cooper-       Sept. 2011                       X           X
Hewitt




                                          4

                                    SECURITY

                                        Unlocked     Required       Improper
                             Missing    doors and    security    Segregation of
                               or        cabinets     devices    Duties: Access
              Date Report    broken      or poor        not      to Objects and
 MUSEUM         Issued       devices   key control   installed       Records

NMAI Move     Oct. 2001         X             X                         X

NMNH          Sept. 2006        X             X

NASM          Mar. 2010         X

Cooper-       Sept. 2011
Hewitt
NMAH          Sept. 2011        X             X          X              X
Phase II

To better address these patterns, we decided to approach collection care issues
from a pan-Institutional perspective. Rather than conduct an audit of another
museum just to find the same types of issues, we instead urged management to
use our previous audit recommendations, including those directed to specific
museums, for addressing the problems across the Institution.

For example, on inventory controls, we recommended in one audit that
management “establish and implement a plan to conduct a full inventory of the
museum’s collections” that includes a prioritized list of the inventory needs. In
addition, we recommended that management “strengthen and standardize
collections management elements in performance plans” for museum management
that includes requirements to conduct cyclical inventories. These recommendations
have clear pan-Institutional application.

Likewise, on collections security standards, we recommended in the same audit that
management “develop and implement a prioritized plan” to bring the museum’s
collections storage areas into compliance with Smithsonian space security
standards. This recommendation also could be applied across the Institution.

We also found pan-Institutional applications for several of our recommendations
involving preservation issues identified in our most recent audit of NMAH. In one
recommendation, we asked Smithsonian management to develop a prioritized plan
for addressing storage needs. Furthermore, we recommended that management
“establish and implement a Preservation Program,” as required by Smithsonian
Directive 600 “Collections Management,” including prioritized plans for conducting
staffing and preservation assessments, as well as preservation and curatorial staff
training.




                                         5

Moreover, we highlighted these systemic patterns of collections care problems in
our 2012 report on “Top Management Challenges,” which identified the most critical
issues that the Smithsonian faces. In that report, we emphasized the need for the
Smithsonian to address collections care pan-institutionally. Consistent with our
audit findings, the three primary challenges we listed are: (1) improving
preservation practices; (2) strengthening inventory controls; and (3) meeting
collections security standards.

Management agreed in general with our pan-Institutional emphasis on collections
care. Rather than applying our audit recommendations Institution-wide, the
Deputy Under Secretary for Collections and Interdisciplinary Support (DUSCIS) had
already moved forward on strategic initiatives for collections stewardship in the
following three areas: digitization, physical condition of collections, and collections
space planning.

Management’s three strategic initiatives partially overlap with the collections care
areas we identified in the Top Management Challenges. We are presently
evaluating the impact that management’s initiatives are having on collections care
challenges in our recently announced review.

In the meantime, we have evaluated plans from both museum and Smithsonian
management addressing our inventory, preservation, and security
recommendations. These plans are an important first step, and management has
begun implementation of these plans. However, the full implementation of many of
these plans is at risk because implementation is largely contingent on increased
funding levels, rather than assuming existing resources.

In fact, in response to many of our recommendations, management cites resource
constraints as an impediment to full and timely implementation. We acknowledge
the decline in funding for collections care, and in the current federal budget
environment, we do not expect that trend to change. This fiscal constraint was
previously articulated by my predecessor, A. Sprightley Ryan, in her December
2009 testimony before the House Committee on Appropriations (Subcommittee on
Interior, Environment and Related Agencies):

      We understand the resource constraints that prevent more comprehensive
      collections stewardship, from accurate and complete inventories to sound
      preservation, but we believe that the Institution could do more pan-
      Institutional planning and prioritizing to use whatever resources are
      available.

This funding challenge also was identified in 2005 by management’s own consulting
arm, the Office of Policy and Analysis (OP&A), in its lengthy report entitled
“Concern at the Core: Managing Smithsonian Collections.” In that report, OP&A
predicted:




                                           6

      It is unlikely that the Congress will provide all the funds required to bring
      ongoing collections management up to desired levels. Indeed, the Congress
      may not even provide sufficient funds for priority projects such as the
      completion of basic inventories and collection profiles. . . .

OP&A therefore recommended that Smithsonian seek other avenues for additional
funding for collections care activities, including fundraising from private sources.
OP&A pointed out that “[n]either the central administration nor the individual
collecting units have engaged in major efforts to solicit philanthropic funds for
collections management, other than for acquisitions.”

In addition, OP&A identified another impediment to effective collections
management. Despite a Smithsonian-wide collections management policy,
collecting units “are free to set their own standards and allocate resources.” In this
decentralized approach to collection management, “the level of attention devoted to
collections care largely comes down to the priorities of unit directors.” OP&A
recommended that a centralized authority work with museums to clearly define
standards of care for compliance with Smithsonian policy — including conducting
inventories and significance assessments — and then monitor whether museums
are adhering to those standards.

While management has made some progress in establishing these standards, the
DUSCIS does not have authority to enforce compliance or make material resource
allocation decisions concerning collections care. That authority, involving resource
management of collection care, still resides primarily with the museum directors.

                                  Going Forward

We will continue to monitor Smithsonian’s implementation of our previous audit
recommendations. In addition, we have launched two reviews that further examine
collections care challenges.

In June 2013, we initiated a review of Smithsonian’s pan-Institutional collections
care initiatives discussed above. This review will continue our ongoing monitoring
and assessment of the Smithsonian’s progress towards improved collections
stewardship. Our objectives are to evaluate the impact that Smithsonian initiatives
have on collections care, assess management’s plans for using the data collected to
date in addressing collection care issues Smithsonian-wide, and examine future
funding and contingency plans for collections care.

Earlier in 2013, we initiated an audit of high-value object transportation security.
For this audit, we will review the security protocol and standards for transporting
high-value and high-risk value objects. However, management currently has in
process a draft policy that would address many of the issues we intended to review.
To allow management time to implement the changes, we suspended this audit but
will resume the review of this important area next fiscal year once the policy is in
place.




                                          7

As SI management moves forward on its pan-Institutional initiatives, we urge
management to continue to make it a high priority to further mitigate the
significant risks posed by the substandard storage conditions at the Garber Facility.

Through ongoing monitoring of implementation and future audits, we will continue
to emphasize the need for the Smithsonian to address collections care issues
Institution-wide. Collections are at the core of the Smithsonian, and the challenges
increase due to growing collections and tighter budgets. By more effectively
addressing these perennial challenges, Smithsonian will ensure that its invaluable
collections will be available for generations to come.




                                          8

